No. 20-1136
CAPITAL CASE

IN THE SUPREME COURT OF THE UNITED STATES

PETER CAPOTE, Petitioner,

v.
STATE OF ALABAMA, Respondent.
ON PETITION FOR WRIT OF CERTIORARI TO
THE ALABAMA COURT OF CRIMINAL APPEALS
REPLY IN SUPPORT OF
PETITION FOR WRIT OF CERTIORARI

PAUL SHECHTMAN
Counsel of Record
RITA K. MAxWELL
GRACE E. CONDRO

Bracewell LLP
1251 Avenue of the Americas
49th Floor
New York, NY 10020
paul.shechtman@bracewell.com
(212) 508-6107
Counsel for Petitioner

March 25, 2021

This reply brief is submitted in further support of Peter Capote's petition
for a writ of certiorari.
In response to our petition, Alabama argues that we "misunderstand

[Ring v. Arizona, 536 U.S. 584 (2002), and Hurst v. Florida, 136 S.Ct. 616 (2016)] and
the way that Alabama's capital sentencing statute works." Ala. Br. 3. As discussed
below, it is Alabama that misunderstands this Court's precedents and the workings
of its own capital sentencing scheme.
1.

The bright-line rule of Ringand Hurst is easily stated: "[i]f a state

makes an increase in a defendant's authorized punishment contingent on the finding
of a fact, that fact -- no matter how the State labels it -- must be found by a jury
beyond a reasonable doubt." Hurst, 536 U.S. at 602. What follows inexorably from
that rule is this: (1) A defendant convicted of first-degree murder in Alabama cannot
receive a death sentence unless a judge determines that the aggravating
circumstances outweigh the mitigating circumstances ("the weighing process"). (2)
Without that critical finding, the maximum sentence to which the defendant is
exposed is life imprisonment without parole. And (3) thus, the jury must find beyond

a reasonable doubt that the aggravating circumstances outweigh the mitigating
circumstances for an Alabama death sentence to survive Sixth Amendment scrutiny.
2.

Alabama writes that "[i]n Ring, the Court held that although a

judge can make the 'selection decision,' the jury must find the existence of any fact
that makes a defendant 'eligible' for the death penalty by increasing the range of
punishment to include ... the imposition of the death penalty." Ala. Br. 3. But the

words "selection decision" (or any words with similar effect) do not appear in Ring.
They are Eighth Amendment words, and Ring is a Sixth Amendment decision.
Moreover, Ring's claim was "tightly delineated": he contended only that the Sixth
Amendment required a jury to find an aggravating circumstance asserted against
him. 536 U.S. at 597 n.4. He did not challenge the weighing process. While Rings
contention was "tightly delineated," the Court's holding was not.

"Capital

defendants," the Court held, "are entitled to a jury determination of any fact on which
the legislature conditions an increase in their maximum punishment." Id. at 589
(emphasis added). In Alabama, a determination that the aggravating circumstances
exceed the mitigating circumstances is such a finding, and, as a result, Mr. Capote
was entitled to have the jury find it.
3.

This Court's decision in Kansas v. Carr, 136 S.Ct. 633 (2016),

which Alabama cites, is not to the contrary. Ala. Br. 5. There, the Court considered
whether the Eighth Amendment required capital sentencing courts in Kansas "to
affirmatively inform the jury that mitigating circumstances need not be proven
beyond a reasonable doubt,'' id. at 642, and the Court concluded that there was no

such Eighth Amendment requirement. Nowhere did the Court suggest that the
weighing process could be left to the judge if its outcome was essential to the
imposition of a sentence of death. That is not surprising. Under Kansas law, "both
the existence of aggravating circumstances and the conclusion that they outweigh
mitigating circumstances must be proved [to the jury] beyond a reasonable doubt."

Id. at 643 (emphasis added); see also State v. Gleason, 329 P.3d 1102, 1141 (Kan.

-2-

2014) ("In Kansas, the death penalty may be imposed only if the jury unanimously
finds beyond a reasonable doubt that (1) the aggravating circumstances alleged by
the State exist and (2) the existence of such aggravating circumstances is not
outweighed by any mitigating circumstances found to exist."). Which is to say that
Kansas does what Alabama doesn't, and must.
4.

The Kansas scheme belies Alabama's claim that "there is no

factual answer to the question whether [aggravating factors] outweigh [mitigating
factors]." Ala. Br. 5. Kansas puts that question to the jury and gets an answer; the
question is not unanswerable.
5.

Moreover, Cunningham v. California, 549 U.S. 270 (2007),

undermines Alabama's position.

There, an "upper-term sentence" could not be

imposed unless the judge found to a preponderance of the evidence circumstances in
aggravation of the crime after considering "the trial record; the probation officer's
report; statements in aggravation ... submitted by the parties, the victim, or the
victim's family and any further evidence introduced at the sentencing hearing." Id.
at 277.

In defending its statutory scheme, California argued that it "simply

authorize[d] a sentencing Court to engage in the type offactfinding that traditionally
has been incident to the judge's selection of an appropriate selection within a
statutory prescribed sentencing range." Id. at 289. This Court rejected that defense,
writing:

"that broad discretion to decide what facts may support an enhanced

sentence, or to determine whether an enhanced sentence is warranted in any

-3-

particular case, does not shield a sentencing system from [a Sixth Amendment
challenge]." Id. at 290. Those words apply with equal force in this case.
6.

Alabama argues that we have ignored the "unambiguous holding

[of McKinney v. Arizona, 140 S.Ct. 702 (2020)] in favor of a tortured argument about
an aspect of Arizona's capital sentencing scheme."

Ala. Br. 7.

But Alabama

substitutes an adjective ("tortured") for an analysis. Analysis here turns on two facts,
neither of which Alabama disputes. First, in Arizona at the time, a defendant was
eligible for a death sentence ifthe jury found at least one aggravating factor, and the
court could impose a life sentence if it found "mitigating circumstances sufficiently
substantial to call for leniency." Ariz. Rev. Stat. Ann. ยง 13-703(E)(1993). Thus, the
existence of mitigating facts decreased the punishment that could otherwise by
imposed. Second, under the Sixth Amendment, mitigating facts need not be found by
the jury. See Apprendi v. New Jersey, 530 U.S. 466, 490 n.16 (2000)(noting "the
distinction the Court has often recognized between facts in aggravation of
punishment and facts in mitigation"). Alabama may not appreciate that distinction,
but it is a settled aspect of Sixth Amendment jurisprudence.

7.

Finally, it bears reemphasizing that ours is not a brief for jury

sentencing in capital cases. Alabama could constitutionally require a jury to find
(i) that an aggravating circumstance exists and (ii) that aggravating circumstances
outweigh mitigating circumstances, and give the sentencing judge discretion to
impose a life without parole sentence if she thought it just. Such a scheme would
authorize a death sentence but not compel one. The judge could still exercise mercy.

-4-

What Alabama can't do, and has done, is h ave a judge find facts without which a
capital sentence may not be imposed.
CONCLUSION
For these reasons and those in our initial brief, Peter Capote's petition
for a writ of certiorari should be granted.
Respectfully submitted,

f-1_/~
PAULSHECHTMAN
Counsel of Record
RITA K. MAXWELL
GRACE E. CONDRO
Bracewell LLP
1251 Avenue of the Americas
49th Floor
New York, NY 10020
paul.shechtman@bracewell.com
212-508-6107

Counsel for Petitioner

-5-

